                              ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C
                                                                             OFFICE OF
                                                                        INSPECTOR GENERAL



September 17, 2003

Memorandum

Subject:        Auditor’s Report for the South Carolina Drinking Water State Revolving Fund
                Program (the Program) as of June 30, 2002
                Audit Report No.2003-1-00138

From:           William M. Dayton
                National SRF Audit Manager

To:             Jimmy Palmer
                Regional Administrator
                EPA, Region 4
                Atlanta, GA

Attached is a copy of the subject audit we sent to the State of South Carolina. The audit contains
reports on the financial statements, internal controls, and compliance requirements applicable to
the Drinking Water State Revolving Fund (SRF) program in South Carolina for the year ended
June 30, 2002.

We issued an unqualified opinion on the financial statements and did not note any matters
involving the internal control system and operations that we consider to be reportable conditions.
We qualified our opinion on the compliance requirements applicable to the SRF program because
the South Carolina Drinking Water State Revolving Fund did not comply with certain compliance
matters required by the Safe Drinking Water Act and regulations. In response to the draft audit
report, management agreed with our compliance issue, and is taking appropriate steps to correct
the deficiency.

In accordance with EPA directive 2750, the Action Official is required to take action on the
findings and recommendations in this report within 150 days.

The OIG has no objection to the release of this report to any member of the public upon request.
The report contains no confidential business or proprietary information.

If you have any questions or concerns regarding this matter, please feel free to contact me at
(916) 498-6590 or Mr. Paul Felz at (303) 312-6270.

Attachment
                              ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C
                                                                                    OFFICE OF
                                                                               INSPECTOR GENERAL




September 17, 2003

Mr. R. Lewis Shaw, Deputy Commissioner
South Carolina Department of Health and Environmental Control

Mr. Michael S. Gulledge, Director
Office of Local Government
South Carolina State Budget and Control Board

Re:     Audit Reports of the Financial Statements of the South Carolina Drinking Water State Revolving
        Fund Program for the year ended June 30, 2002
        Audit Report No. 2003-1-00138

Dear Mr. Shaw and Mr. Gulledge:

Enclosed please find an electronic copy of the audited financial statements for the South Carolina
Drinking Water State Revolving Fund Program for the year ended June 30, 2002. We made certain
adjustments and reclassifications, to which you have agreed, in order to have the financial statements
follow EPA’s current reporting guidelines, which are in accordance with generally accepted accounting
principles

We would like to thank you and your staff for the cooperation and courtesies we received during our audit.
Please feel free to call me at (916) 498-6590 or Mr. Paul Felz at (303) 312-6270 should you have any
comments or questions.


Sincerely,


William M. Dayton
National SRF Audit Manager
OIG
OFFICE OF INSPECTOR GENERAL
                                   Catalyst for Improving the Environment



Audit Report


South Carolina Drinking Water
State Revolving Fund Program
Financial Statements with
Independent Auditor’s Report, June 30, 2002

Audit Report Number 2003-1-00138

Issued September 17, 2003
                                    South Carolina Drinking Water State Revolving Fund
                                                    Table of Contents



Independent Auditor’s Report........................................................................................................................1

Balance Sheet ...............................................................................................................................................2

Statement of Revenues, Expenses, and Changes in Fund Equity ...............................................................3

Statement of Cash Flows ..............................................................................................................................4

Notes to Financial Statements.......................................................................................................................5

Independent Auditor’s Report on the Internal Control Structure Based on an Audit of
the Financial Statements Performed in Accordance with Government Auditing Standards .......................11

Independent Auditor’s Report on Compliance with Requirements Applicable to the
Environmental Protection Agency’s State Revolving Fund Program in Accordance with
Government Auditing Standards ................................................................................................................13

Supplemental Information............................................................................................................................16




                                                                              ii
                                ENVIRONMENTAL PROTECTION AGENCY
                                        WASHINGTON, D.C
                                                                                          OFFICE OF
                                                                                     INSPECTOR GENERAL

                                         Independent Auditor’s Report

To:     Mr. R. Lewis Shaw, Deputy Commissioner
        South Carolina Department of Health and Environmental Control

        Mr. Michael S. Gulledge, Director
        Office of Local Government
        South Carolina State Budget and Control Board

We have audited the accompanying balance sheet of the South Carolina Drinking Water State Revolving
Fund Program (the Program) as of June 30, 2002, the related statement of revenues, expenses, and
changes in fund equity, and the statement of cash flows for the year then ended. These financial
statements are the responsibility of the Program’s management. Our responsibility is to express an
opinion on these financial statements based on our audit.

We conducted our audit in accordance with generally accepted auditing standards in the United States of
America and Government Auditing Standards issued by the Comptroller General of the United States of
America. Those standards require that we plan and perform the audit to obtain reasonable assurance
about whether the financial statements are free of material misstatement. An audit includes examining,
on a test basis, evidence supporting the amounts and disclosures in the financial statements. An audit
also includes assessing the accounting principles used and significant estimates made by management,
as well as evaluating the overall financial statement presentation. We believe that our audit provides a
reasonable basis for our opinion.

In our opinion, the financial statements referred to in the first paragraph present fairly, in all material
respects, the financial position of the Program as of June 30, 2002, and the results of its activities and its
cash flows for the year then ended in conformity with generally accepted accounting principles in the
United States of America.

Our audit was conducted for the purpose of forming an opinion on the financial statements taken as a
whole. The supplemental information is presented for purposes of additional analysis of the financial
statements. The supplemental information has been subjected to the auditing procedures applied in the
audit of the financial statements and, in our opinion, is fairly stated in all material respects in relation to
the financial statements taken as a whole.

As discussed in Note 1, the financial statements referred to above are intended to present the financial
position and results of operations of the Program, a component of the general fund of the State of South
Carolina. These statements are not intended to present the financial position or results of operations for
the State of South Carolina, the South Carolina Department of Health and Environmental Control, or the
South Carolina State Budget and Control Board, of which the Program is a part. Certain supplementary
information referred to as Management Discussion and Analysis, although not a required part of the basic
financial statements, has been omitted for this program-specific financial presentation.

In accordance with Government Auditing Standards, we have also issued a report dated April 25, 2003,
on our consideration of the Program’s internal control structure and a report dated April 25, 2003, on the
Program’s compliance with laws and regulations.



Office of Inspector General
April 25, 2003
                                                 SOUTH CAROLINA
                                    Drinking Water State Revolving Fund (DWSRF)
                                             Combining Balance Sheet
                                                  June 30, 2002
                                    (With comparative unaudited totals for 2001)


                                                                                   (Memorandum
                                                                                       only)
                                                                     Loan              Total        (Unaudited)
                                                DWSRF                 Fee              2002            2001
   Assets:
Current assets:
 Cash and cash equivalents                  $    9,547,150       $    383,506      $    9,930,656   $    7,517,243
 Loan interest receivable                          130,682                  -             130,682          168,840
 Investment interest receivable                    113,746                  -             113,746           62,536
 Federal grant receivable                           23,428                  -              23,428           33,372
 Current portion of loans receivable               948,344                  -             948,344          767,293
     Total current assets                       10,763,350            383,506          11,146,856        8,549,284

Noncurrent assets:
 Loans receivable, net of current portion       23,719,842                  -          23,719,842       21,087,852
    Total noncurrent assets                     23,719,842                  -          23,719,842       21,087,852

Total assets                                $ 34,483,192         $    383,506      $ 34,866,698     $ 29,637,136


   Liabilities and Fund Equity:
Current liabilities:
 Unearned income                                   25,659                   -             25,659           14,221
 Due to other funds                                23,428                   -             23,428           33,372
    Total current liabilities                      49,087                   -             49,087           47,593

Fund Equity                                     34,434,105            383,506          34,817,611       29,589,543

Total liabilities and fund equity           $ 34,483,192         $    383,506      $ 34,866,698     $ 29,637,136




                                                             2
                                              SOUTH CAROLINA
                                     Drinking Water State Revolving Fund
                                 Combining Statement of Revenues, Expenses
                                         and Changes in Fund Equity
                                       For the year ended June 30, 2002
                                 (With comparative unaudited totals for 2001)

                                                                              (Memorandum
                                                                                  only)
                                                                   Loan           Total        Unaudited
                                              DWSRF                 Fee           2002           2001

Revenues:
 Loan interest                            $      903,783                      $      903,783   $      720,345
 Investment earnings                             413,166       $    15,416           428,582          267,780
 Grant Revenues                                1,384,743                 -         1,384,743          542,447
 Management fees                                       -           123,501           123,501            5,097
    Total revenues                             2,701,692           138,917         2,840,609        1,535,669

Expenses:
 Salaries and benefits                           335,618            62,329           397,947         297,385
 Contractual services                            973,647             2,412           976,059         245,039
 Travel                                            5,394                 -             5,394               -
 Indirect costs                                   30,242                 -            30,242          21,098
 Other operating costs                            39,842             3,949            43,791          41,531
    Total expenses                             1,384,743            68,690         1,453,433         605,053

Operating income                               1,316,949            70,227         1,387,176         930,616

Capital Contributions
 Environmental Protection Agency               2,781,762                  -        2,781,762        8,954,925
 State of South Carolina                       1,059,130                  -        1,059,130        4,626,817
   Total Capital Contributions                 3,840,892                           3,840,892       13,581,742

     Change in net assets                      5,157,841            70,227         5,228,068       14,512,358

Fund equity, beginning of year                29,276,264           313,279        29,589,543       15,077,185

Fund equity, end of year                  $ 34,434,105         $   383,506    $ 34,817,611     $ 29,589,543




                                                           3
                                           SOUTH CAROLINA
                                 Drinking Water State Revolving Fund
                                         Statement of Cash Flows
                                     For the year ended June 30, 2002
                               (With comparative unaudited totals for 2001)



                                                                                              (Unaudited)
                                                                            2002                 2001
Cash provided (used) by operating activities:
  Loan interest                                                       $        941,941        $       601,560
  Loan fees                                                                    123,501                  5,097
  Investment interest                                                          377,372                230,531
  Operating grants                                                           1,395,776                528,500
  Program administration                                                      (310,715)              (284,516)
  Technical assistance                                                        (164,074)              (158,163)
  State drinking water program management                                      (32,089)                     -
  Local assistance                                                            (946,150)              (136,348)
  Loan disbursements                                                        (3,580,334)           (11,002,721)
  Loan repayments                                                              767,293                575,490
Net cash provided (used) by operating activities                            (1,427,479)            (9,640,570)

Cash flows from capital and related financing activities:
  Capital Funds received from EPA                                            2,781,762             8,954,925
  State match                                                                1,059,130             4,626,817
Net cash used in capital and related financing activities:                   3,840,892            13,581,742

Increase (decrease) in cash and cash equivalents                             2,413,413             3,941,172

Cash and cash equivalents, beginning of year                                 7,517,243             3,576,071

Cash and cash equivalents, end of year                                $      9,930,656        $    7,517,243




Reconciliation of net operating income to net cash provided (used) by operating activities:

Net operating income                                                  $      1,387,175               930,616
Adjustments to reconcile operating income to net cash
provided by operating activities:
   (Increase) decrease in current receivables                                   (3,109)              (182,059)
    Increase (decrease) in current liabilities                                   1,495                 38,104
Loan disbursements                                                          (3,580,334)           (11,002,721)
Loan repayments                                                                767,293                575,490
Net cash provided by operating activities                             $     (1,427,479)       $    (9,640,570)




                                                       4
                                 SOUTH CAROLINA
                        Drinking Water State Revolving Fund
                           Notes to Financial Statements

1.   Organization of the Program

     The South Carolina Drinking Water State Revolving Fund Program was established pursuant
     to section 1452 (a) of the Safe Drinking Water Act amendments of 1996 and Section 48-5-55
     of the South Carolina Code of Laws. The purpose of the DWSRF is to provide low interest
     loans to public water systems for construction of drinking water facilities. Projects are
     normally funded for a maximum term of twenty years; however, loan applicants considered
     to be disadvantaged communities may be offered loans with a maximum term of thirty years.
     Interest rates, which are established annually by the Budget and Control Board, are typically
     30% to 33% below the average Bondbuyer 25 index. All loan repayments and interest are
     deposited back in the Program to fund additional projects.

     The State of South Carolina’s Department of Health and Environmental Control (DHEC) and
     the South Carolina Budget and Control Board, Office of Local Government (OLG) have
     entered into a Memorandum of Agreement under which each has agreed to assume
     specified responsibilities in connection with operations of the Program. DHEC develops an
     annual Intended Use Plan, maintains a project priority system, obtains capitalization grants
     from the U.S. Environmental Protection Agency (EPA), performs technical project reviews,
     monitors construction, and is responsible for the environmental and technical aspects of the
     Program. DHEC also sets aside portions of the capitalization grants allowed by the Safe
     Drinking Water Act to fund certain other drinking water related activities, including
     administration of the DWSRF, the State’s drinking water program administration and
     management, source water protection, operator certification, capacity development and
     technical assistance for small water systems.

     The OLG establishes the financial policies governing loans, makes final loan decisions,
     disburses funds to borrowers, manages and accounts for the loan funds, and ensures the
     state match in timely deposited.

     DHEC’s cost of administering the DWSRF program is charged to the four percent
     administrative set-aside. The OLG‘s administration costs are charged to the Management
     Fee Fund. Administration costs include the salaries and benefits of the employees, as well
     as indirect costs allocated to the Program. Employees charging time to the Program are
     covered by the benefits available to State of South Carolina employees. The fund is also
     charged indirect costs through a cost allocation plan agreement between DHEC and the
     EPA, which is renewed annually.

     The Program’s financial statements, footnotes, and related schedules are presented for the
     EPA. The Program is included in the State of South Carolina’s basic financial statements as
     a part of a special revenue fund, which uses the modified accrual basis of accounting. Due
     to differences in reporting methods, there may be differences between the amounts reported
     in these financial statements and the State’s basic financial statements.

2.   Summary of Significant Accounting Policies

     Basis of Accounting

     The financial statements for the Program are presented as an enterprise fund. As such, the
     Program is accounted for using the flow of economic resources measurement focus and is
     maintained on the accrual method of accounting. Under the accrual method of accounting,
     revenues are recognized when earned and expenses are recorded at the time the liabilities


                                            5
                                 SOUTH CAROLINA
                        Drinking Water State Revolving Fund
                           Notes to Financial Statements

2.   Summary of Significant Accounting Policies (continued)

     are incurred. All assets and liabilities associated with the operations of the Program are
     included on the balance sheet. The State has elected to follow the accounting
     pronouncements of the Governmental Accounting Standards Board, as well as statements
     issued by the Financial Accounting Standards Board on or before November 30, 1989,
     unless the pronouncements conflict with or contradict GASB pronouncements.

     Cash and Cash Equivalents

     All monies of the loan fund are deposited with the South Carolina State Treasurer’s Office,
     which is responsible for maintaining these deposits in accordance with South Carolina State
     law. The Program considers all such deposits to be cash. The Program on a monthly basis
     receives investment interest earnings on these deposits. According to State law, the
     Treasurer is responsible for maintaining the cash balances and investing excess cash of the
     Program, as further discussed in Note 3. Consequently, management of the Program does
     not have any control over the investment of the excess cash. The statement of cash flows
     considers all funds deposited with the Treasurer to be cash or cash equivalents, regardless
     of actual maturities of the underlying investments.

     Cash received by DHEC from EPA to fund “set-aside” activities are generally used
     immediately to reimburse other funds for eligible expenditures. Occasionally, DHEC will
     draw funds based on future estimated expenditures, resulting in small cash balances, held
     by DHEC, that are used to reimburse other funds when the expenditures are incurred.

     Loans Receivable

     Loans are funded by Federal capitalization grants and State matching funds. The DWSRF
     monies are disbursed to borrowers on a cost reimbursement basis. When the borrowers
     have incurred qualifying expenses, they request a loan disbursement from the Program, and,
     upon approval, a disbursement is made. Interest begins accruing when funds are disbursed
     to the borrower. Repayment of the loan begins within three to nine months after a Permit to
     Operate is projected to be issued by DHEC, or up to 30 months after the loan is made,
     whichever occurs first. The loans generally have maturities up to 20 years. South Carolina
     provides longer repayment terms and/or interest subsidies for disadvantaged communities
     under the Disadvantaged System Program as outlined in the State’s Intended Use Plan.

     There is no allowance for uncollectible accounts, as all repayments are current, and
     management believes all loans will be repaid according to the loan terms.

     Contributed Capital

     In accordance with generally accepted accounting principles, funds received from EPA and
     the State of South Carolina to capitalize the loan program are recorded as other revenues.
     Funds received from EPA for reimbursement of set-aside expenses are treated as operating
     grants.




                                            6
                                        SOUTH CAROLINA
                               Drinking Water State Revolving Fund
                                  Notes to Financial Statements

3.       Cash and Cash Equivalents

         All cash in the Program is deposited with the State Treasurer who is responsible for
         maintaining and investing the pooled cash balances in accordance with State laws. The
         Treasurer is required to maintain a mix of investments in order to allow funds to be withdrawn
         at any time to meet normal operating needs. The Program’s share of the investment income
         from the local government investment pool is based on the average daily balance for the
         period and is credited to the Program monthly. Details of the investments can be obtained
         from the State Treasurer’s Office.

         All cash and investments in the local government investment pool are stated at cost, which
         approximates fair market value. Investments in local government investment pools are not
         categorized because they are not evidenced by securities that exist in physical or book entry
         form.


                                                                                        Carrying Amount
               Not subject to categorization:
                       Local government investment pool                                  $       9,930,656


4.       Loans Receivable

         The Program makes loans to qualified entities at interest rates ranging from 3.5 percent to
         4.0 percent with scheduled final maturity dates through 2032.


         Loans receivable activity during the year ended June 30, 2002 is summarized as follows:


                       Loan Amount     Remaining        Loan Balance                                           Loan Balance
 Loan Status            Authorized    Commitment        June 30, 2001   Disbursements        Repayments        June 30, 2002
 Funding Completed     $ 12,034,928   $         -       $ 11,354,599    $     13,666         $     (469,613)   $   10,898,652
 Funding in Progress     22,351,208     8,138,434         10,500,546        3,566,668              (297,680)       13,769,534
   Total               $ 34,386,136   $ 8,138,434       $ 21,855,145    $   3,580,334        $     (767,293)   $   24,668,186



         The Program has entered into nine loans to three local communities that represented 91
         percent of the total loans outstanding at June 30, 2002, as follows:


                                                                                                          Percentage of
                                                                 Loan               Loan                      Total
                      Community                               Authorized         Outstanding               Outstanding
     Beaufort-Jasper Water and Sewer Autority                $ 16,409,116       $ 9,993,024                   41%
     City of Florence                                           8,978,340          8,694,520                  35%
     Startex-Jackson-W ellford-Duncan W ater District           4,793,309          3,813,089                  15%
        Total                                                $ 30,180,765       $ 22,500,633                  91%




                                                    7
                                           SOUTH CAROLINA
                                  Drinking Water State Revolving Fund
                                     Notes to Financial Statements

4.            Loans Receivable (continued)

              Loans mature at various intervals through January, 2032. The scheduled principal and
              interest payments on completely disbursed loans maturing in the next five years and every
              five years thereafter are as follows:

                                   Principal            Interest              Total
                           2003 $ 488,192         a $ 404,081             $   892,272
                           2004     506,960       b     385,312               892,272
                           2005     526,453       b     365,820               892,272
                           2006     546,698       b     345,574               892,272
                           2007     567,726       b     324,546               892,272
                     2008-2012    2,951,781       b   1,289,117             4,240,899
                     2013-2017    3,353,147       b     707,373             4,060,520
                     2018-2020    1,957,696       b     104,213             2,061,909
                     Totals     $10,898,652         $ 3,926,036           $14,824,688

              The current portion of loans receivable includes $488,192 for completed projects and an
              estimated $460,152 for projects that are still in progress, for a total of $948,344. The
              amortization schedules for the projects in progress may change upon completion of the
              project when the final loan balance will be determined.


     5.       Fund Equity

              The Program is capitalized by grants through EPA and state match provided by the State of
              South Carolina equaling 20 percent of the federal capitalization amount. The EPA grants and
              the State match are included in the fund equity balance. South Carolina’s matching
              contribution has been provided through appropriation of State general fund resources. As of
              June 30, 2002, EPA has awarded $44,515,247 to the state, of which $23,959,533 has been
              drawn for loans and set-aside expenses. The State has provided match funds of
              $10,513,550. The following summarizes the capitalization grant award, amounts drawn on
              each grant as of the balance sheet date, and balances available for future loans and set-
              aside costs:
                                                                                                  Grant Funds
                                         Total Draws as                        Total Draws as    Available June
          Grant       Grant Amount      of June 30, 2001    2002 Draws        of June 30, 2002     30, 2002
     FS984312-97      $ 14,821,600      $    13,638,844     $ 1,117,000       $   14,755,844     $     65,756
     FS984312-98         7,669,400            6,143,151       1,361,060            7,504,211          165,189
     FS984312-99         8,038,300                    -       1,666,478            1,666,478        6,371,822
     FS984312-00         5,597,247                    -           2,000                2,000        5,595,247
     FS984312-01         8,388,700                    -          31,000               31,000        8,357,700
                      $ 44,515,247      $    19,781,995     $ 4,177,538       $   23,959,533     $ 20,555,714




              The capitalization grant FS984312-00 was amended on June 21,2002, and $2,756,853 of the
              DWSRF was transferred to the Clean Water State Revolving Fund. The schedule above
              includes the amended grant amount.
                                                      8
                                    SOUTH CAROLINA
                           Drinking Water State Revolving Fund
                              Notes to Financial Statements


5.    Fund Equity (continued)


       As of June 30, 2001 and 2002, State matching contributions were as follows:

                                           June 30, 2001       Contributions       June 30, 2002

       South Carolina State Match           $ 9,454,420        $ 1,059,130        $ 10,513,550


6.    Set-Aside Costs

       Total set-aside costs charged to the Program are as follows:

                                                         State
                                     Technical         Program          Source Water            Total
                 Administrative     Assistance        Management          Protection          Set-Aside
     FY 1998     $    122,874       $          -     $           -      $      50,156       $    173,030
     FY 1999          289,604                                    -            170,800            460,405
     FY 2000          249,575             6,103                  -            120,792            376,470
     FY 2001          247,935           158,163                  -            136,348            542,447
     FY 2002          242,431           164,074             32,089            946,150          1,384,743
     Total       $  1,152,419       $   328,340      $      32,089      $ 1,424,246         $ 2,937,094




7.    Contingencies, Related Parties, and Subsequent Events

      Contingencies

       The Program is exposed to various risks of loss related to torts, thefts of assets, errors or
       omissions, injuries to state employees while performing Program business, or acts of God.
       The State maintains insurance for all risks of loss, which is included in the indirect costs
       allocated to the Program.

       According to DHEC management and legal counsel, there are no other loss contingencies
       which require disclosure or accrual under the Statement of Financial Accounting Standards
       No. 5.

       Related Parties

       There are no related party transactions with or related amounts receivable from
       management of the Programs.

      Subsequent Events

      On September 3, 2002, EPA awarded South Carolina a capitalization grant in the amount of
      $8,052,500.



                                               9
            Independent Auditor’s Report on the
South Carolina Drinking Water State Revolving Fund Program
          Internal Control Structure Based on an
              Audit of the Financial Statements
               Performed in Accordance with
              Government Auditing Standards
                               ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C
                                                                                       OFFICE OF
                                                                                  INSPECTOR GENERAL



Mr. R. Lewis Shaw, Deputy Commissioner
South Carolina Department of Health and Environmental Control

Mr. Michael S. Gulledge,Director
Office of Local Government
South Carolina State Budget and Control Board


We have audited the financial statements of the South Carolina Drinking Water State Revolving Fund
Program (the Program) as of and for the year ended June 30, 2002, and have issued our report thereon
dated April 25, 2003.

We conducted our audit in accordance with generally accepted auditing standards and Government
Auditing Standards issued by the Comptroller General of the United States. Those standards require that
we plan and perform the audit to obtain reasonable assurance about whether the financial statements are
free of material misstatement.

The management of the Program is responsible for establishing and maintaining an internal control
structure. In fulfilling this responsibility, estimates and judgments by management are required to assess
the expected benefits and related costs of internal control policies and procedures. The objectives of an
internal control structure are to provide management with reasonable, but not absolute, assurance that
assets are safeguarded against loss from unauthorized use or disposition and that transactions are
executed in accordance with management’s authorization and recorded properly to permit the preparation
of financial statements in accordance with generally accepted accounting principles. Because of inherent
limitations in any internal control structure, errors or irregularities may nevertheless occur and not be
detected. Also, projection of any evaluation of the structure to future periods is subject to the risk that
procedures may become inadequate because of changes in conditions or that the effectiveness of the
design and operation of policies and procedures may deteriorate.

In planning and performing our audit of the financial statements of the Program for the year ended June
30, 2002, we obtained an understanding of the internal control structure. With respect to the internal
control structure, we obtained an understanding of the design of relevant policies and procedures and
whether they have been placed in operation, and we assessed control risk in order to determine our
auditing procedures for the purpose of expressing our opinion on the financial statements and not to
provide an opinion on the internal control structure. Accordingly, we do not express such an opinion.

Our consideration of the internal control structure would not necessarily disclose all matters in the internal
control structure that might be material weaknesses under standards established by the American
Institute of Certified Public Accountants. A material weakness is a condition in which the design or
operation of one or more of the specific internal control elements does not reduce to a relatively low level
the risk that errors and irregularities in amounts that would be material in relation to the financial
statements being audited may occur and not be detected within a timely period by employees in the
normal course of performing their assigned functions. We noted no matters involving the internal control
structure and its operations that we consider to be material weaknesses as defined above.

This report is intended for the information of management of the Program and the U.S. Environmental
Protection Agency. However, this report is a matter of public record and distribution is not limited.


Office of Inspector General
April 25, 2003




                                                     11
               Independent Auditor’s Report
    on Compliance with Requirements Applicable to the
South Carolina Drinking Water State Revolving Fund Program
                     in Accordance with
              Government Auditing Standards
                                ENVIRONMENTAL PROTECTION AGENCY
                                        WASHINGTON, D.C
                                                                                         OFFICE OF
                                                                                    INSPECTOR GENERAL

Mr. R. Lewis Shaw, Deputy Commissioner
South Carolina Department of Health and Environmental Control

Mr. Michael S. Gulledge,Director
Office of Local Government
South Carolina State Budget and Control Board


We have audited the financial statements of the South Carolina Drinking Water State Revolving Fund
Program (the Program) as of and for the year ended June 30, 2002, and have issued our report thereon
dated April 25, 2003.

We have also audited the Program’s compliance with specific program requirements governing
allowability for specific activities, allowable types of assistance, state matching, period of availability of
funds and binding commitments, cash management, program income, and subrecipient monitoring that
are applicable to the Program for the year ended June 30, 2002. The management of the Program is
responsible for the Program’s compliance with those requirements. Our responsibility is to express an
opinion on those requirements based on our audit.

We conducted our audit of compliance in accordance with generally accepted auditing standards,
Government Auditing Standards, issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain reasonable assurance about whether
material noncompliance with the requirements referred to above occurred. An audit includes examining,
on a test basis, evidence about the Program’s compliance with those requirements. We believe that our
audit provides a reasonable basis for our opinion.

In our opinion, except for matters discussed in the Findings and Recommendations Section, the Program
complied, in all material respects, with the specific program requirements that are applicable to the
Program for the year ended June 30, 2002.

This report is intended for the information of management of the Program and the U.S. Environmental
Protection Agency. However, this report is a matter of public record and its distribution is not limited.


Office of Inspector General
April 25, 2003




                                                       13
Findings and Recommendations

State Match

As of June 30, 2002, the State was out of compliance with 40 CFR 35.3550 which requires States to
provide a dollar for dollar match for expenditures made under the State program management set-aside.
This match must be in the form of an eligible credit, funds deposited into the set-aside accounts, or
documented in-kind services. According to 40 CFR 35.3535, the match is to be provided at the time of
the capitalization grant award or in the same year that funds for this set-aside are expected to be
expended in accordance with a workplan approved by EPA. The State is authorized to use the amount of
State funds it expended on its Public Water System Supervision program in fiscal year 1993 as a credit
up to, but not greater than, 50 percent of the amount of match required.

The State had charged $32,089 expenditures to the State program management set-aside fund during
2002, and should have provided the same amount in state match funds. They had documented $7,904 of
in-kind services that were eligible for match. Including $7,904 in credit available from the fiscal year 1993
funds expended, the total match provided was $15,808, for a $16,281 shortfall.

We recommend the State promptly deposit provide the $16,281 match required for FY 2002 funds (50
percent of which can utilize the available credit from fiscal year 1993.) In future Intended Use Plans, the
State should provide the source of this match, as required by 40 CFR 35.3535(d)(2)(i) and 40 CFR
35.3550(h). It should also provide information on how it met the match requirement in its biennial report
to EPA.

State Response

The State responded:

        The Department concurs with the findings . . .of the report for the DWSRF program regarding the
        timing of the match for the State program management set-aside fund. Since becoming aware of
        this requirement we have taken steps to insure the match is provided on a fiscal year basis. We
        anticipate covering the required match by the closure of the DWSRF Program Grant Agreement
        #FS981312-01-1, which is expected to be no later than September 30, 2006.

OIG Response

We appreciate the State recognizing the need to provide the match funds required. However, 40 CFR
35.3550 is an annual requirement, and the shortfall needs to be corrected as soon as possible. We see
no reason for the State to be out of compliance until fiscal year end 2006 on this matter.




                                                     14
Supplemental Information
                                State of South Carolina
                            Drinking Water State Revolving Fund
                              Schedule of Set-aside Expenses
                                 Year Ended June 30, 2002




                                                     Program     Technical      Local
            Cost Category    Administration        Management    Assistance   Assistance        Total
Salaries                     $   153,739           $    20,356   $        -   $ 88,873      $   262,967
Fringe Benefits                    42,825                5,219            -       24,607         72,651
Travel                              3,806                1,252            -          336          5,394
Equipment                                 -                  -            -        1,233          1,233
Supplies                              249                    -            -            8            257
Non Cap-Software                      616                    -            -             -           616
Contractual                         1,454                    -     164,074      808,120         973,647
Other Operating Costs              22,062                2,921            -       12,753         37,736
   Total Direct Cost             224,750                29,748     164,074      935,929       1,354,501
Indirect Cost                      17,680                2,341            -       10,220         30,241
  Total Cost                 $   242,431           $    32,089   $ 164,074    $ 946,150     $ 1,384,743




                                              16
Report Distribution


EPA, Headquarters:

Director, Grants Administration
Agency Followup Coordinator
Associate Administrator for Congressional
         and Intergovernmental Relations
Associate Administrator for Communications,
         Education and Public Affairs
Infrastructure Branch Chief
DWSRF Coordinator
DWSRF Audit Manager

EPA, Region 4:

Regional Administrator
Water Division Director
Chief, Grants and Technical Assistance
Audit Liaison
SRF Coordinator

South Carolina Department of Health and Environmental Control:

Deputy Commissioner
Assistant Director, Water Facilities Permitting Division

South Carolina State Budget and Control Board:

Director
Loan Programs Manager
